No. 19-1293
IN THE SUPREME COURT OF THE UNITED STATES
MICHAEL LUDWIKOWSKI, PETITIONER
v.
UNITED STATES OF AMERICA

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via e-mail and first-class mail,
postage prepaid, this 16th day of September 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 2,924 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
September 16, 2020.

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
September 16, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-1293
LUDWIKOWSKI, MICHAEL
USA

LISA ANN MATHEWSON
THE LAW OFFICES OF LISA A. MATHEWSON,
LLC
123 S. BROAD STREET
SUITE 810
PHILADELPHIA, PA 19109
215-399-9592
LAM@MATHEWSON-LAW.COM

